  

XAVIER BECERRA State of California
Attorney General DEPARTMENT OF JUSTICE

1300 I STREET
SACRAMENTO, CA 95814

Telephone: (916) 210-6269
E-Mail: Sam.Siegel@doj.ca.gov

January 31, 2020
Via Electronic Filing System and Commercial Courier

Hon. Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.

Washington, D.C. 20543

RE: California, et al. v. Texas, et al., No. 19-840

Dear Mr. Harris:

Respondents’ briefs in opposition in the above-captioned case are scheduled to be filed
on or before February 3, 2020. Pursuant to Supreme Court Rule 15.5, petitioners expressly
waive the 14-day waiting period for distribution of this case to the Court. We respectfully
request that the Court distribute the case on its next distribution date for paid cases, which we
understand is February 5, 2020, so that the petition may be considered at the February 21, 2020
conference. For the Court’s planning purposes, we also write to inform you that we intend to file
our reply brief in support of the petition by February 12, 2020.

Sincerely,

se

Ag P. SIEGEL

Deputy Solicitor General

For XAVIER BECERRA
Attorney General
January 31, 2020
Page 2

cc: Douglas N. Letter
General Counsel
U.S. House of Representatives

Noel J. Francisco
Solicitor General
United States Department of Justice

Kyle D. Hawkins

Solicitor General

Office of the Attorney General
State of Texas

Robert Henneke
Texas Public Policy Foundation
Center for the American Future
